    MEDICARE     ENTITLEMENT             AGE




I        OFFICE OF INSPECTOR   GENERAL
           AUGUST 1993 OEI-07-91-01600
              EXECUTIVE                            SUMMARY


PURPOSE

To assess the results of gradually raising the entitlement age for Medicare to 67 to
make it consistent with the increased Social Security retirement age in the
21st Century.

BACKGROUND

The Medicare program pays for medical expenses of persons age 65 or older and for
the disabled. In 1992, the Hospital Insurance portion of Medicare covered 31 million
aged and 4 million disabled individuals and Imade payments of $85.0 billion. The
Supplemental  Medical Insurance portion covered 33.8 million individuals, with
program expenditures of $5(1.8 billion.

Historically, Social Security and Medicare have been closely linked. one example of
this is that both Social Security and Medicare established 65 as their entitlement age.

The Social Security Amendments      of   1983 increased the age of entitlement for Social
Security unreduced benefits from    65   to 67 over the period 2003 through 2027, as one
of several methods to strengthen   the    solvency of the Social Security Trust Fund.
However, the age of entitlement    for   Medicare remained unchanged.

Recent concerns about the solvency of the Medicare Trust Funds,        large deficits in the
Federal budget, a growing interest in reforming the nation’s health     care financing
systems, and general awareness of longer life expectancies make it      important to
reexamine the effects of coordinating Social Security and Medicare       entitlement ages.

METHODOLOGY

We conducted literature reviews to examine the relationships of government
retirement and health insuranm systems, life expectancies, economic trends, and
factors which could nffect the availability and utilization of health insurance.

The Health Car-e Financing Administration     (HCFA) Office of the Actuary provided us
with projected Medicare Hospital Insurance Trust Fund savings which would result if
the Medicare entitlement age were gradually raised to 67 following the same schedule
as the Social Security program.   We performed several analyses of the projected
savings in order to explain the significance of these estimates in today’s dollars.

We examined various factors contributing to the uncertainty of the projected savings
and analyzed the impact of a higher entitlement :~ge on Medicare beneficiaries.




                                               i
FINDINGS

Gradually changing the Medicare enticement age to 67 would save ~he Hospital Ikwrance
T)-ust Fund more than three quurlen of u lrillion dollan over a 30 year period beginning
in the year 2003.

       The projected savings are $446 billion for the 25 year transition period,
       years 2003 through 2027. During the five years immediately after full
       implementation   of the policy, years 2028 through 2032, the savings would be
       $324 billion. The savings for the 30 year period, years 2003 through 2032,
       would be $770 billion.

       The annual savings would be approximately $65 billion per year in the years
       immediately after the entitlement age reached 67. In today’s terms, this
       amounts to between $4.7 and $15.7 billion per year, depending on the measure
       used.

       Medicare Hospital Insurance expenditures would be reduced        by 3.4 percent   and
       the trust fund deficit by 5.() percent for the year 2028.

The Medicare Supplementmy     Medical Insurance program would ako save sipificant
amounts.

       If the entitlement age hnci heen changed to age 67 in 1991, Supplemental
       Medical Insurance savings would have been $2.4 billion that year.

Estimates of Jiulure savingf ure imprecise due 10 a number of uncertainties about which
we can make only rough assump~ions.

       Actual savings will depenci on future prices, utilization patterns, work patterns,
       availability of employer provided insurance, and advances in health care
       technologies.

l%e impact of raking the enlitlemeru age on fulure Medicare bene~ciaries is not known.
Howeve~ provkiing subs~an~iul advance notice OJlhe change, as has been done by Social
Security, can reduce polential negative coruequence.s.

       From our discussion of savings, it is obvious that increasing Medicare’s
       entitlement age woLlld contribute to a healthier Trust Fund. This is not an
       insignificant consideration, in light of estimates that the Medicare Trust Fund
       will become insolvent in 1999.

       However, other effects that raising the entitlement :lge would have on future
       beneficiaries, such as changes in their access to needed medical services, are
       difficult to preciict. The irmpact woLIILiciepend on whether they work longer,




                                             ii
have access to other insurance,   or delay health care until they are entitled   to
Medicare.

If enacted, this change woLIld have to take into account alternative sources of
financing that woLJld be available to those who would be denied Medicare
coverage. Furthermore,     a phased-in transition which parallels Social Security’s
is essential if such a change is adopted.  This would ensure that those affected
would have appropriate     advance warning of the change in time for them to
make alternative health insurance arrangements.




                                      .. .
                                      Ill
                         TABLE                      OF CONTENTS


                                                                                                                       PAGE
EXECUTIVE           SUMMARY

INTRODUCTION                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1

FINDINGS          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . - . . . ...-...8

    .        30 Year Hospital              Insurance    Savings


    �
             Annual     Savings


    .        Savings as a Percent             of Expenditures


    �
             Savings as a Percent             of Deficit


    �
             Supplemental         Meciical ]nsurdnce            Savings


    �
             Uncertainties       of Savings Estimates


    �
             Impact onBeneficiaries


APPENDICES


khngevity           Increases       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-1


B: Savings Projection             s.....      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l


C       Annual   Deficits     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l


D. Bibliogmphy          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..    D-l

                          INTRODUCTION


PURPOSE


To assess the results of gradually raising the entitlement age for Medicare to 67 to

make it consistent with the increased Social Security retirement age in the

21st Century.


BACKGROUND


The Social Security Act, [Public Law (P. L.) 74-271], and related laws established a

number of Federal programs, including Social Security Retirement     Insurance benefits

and the Medicare program.


The Retirement   Insurance benet’its program     (Social Security) insures and provides

monthly benefits (unreduced if taken at age      65) to individual and their dependents

when the individual retires or redL]ces their   income to levels that permit these

payments.  The benefits are funded through       the tax contributions paid by employers,

employees, and self-employed individuals.


The Medicare program is a health insurance program that provides payments for

medical expenses incurred by Social Security retirees ages 65 or older, some disabled

beneficiaries, and for some other individuals with chronic life-threatening illnesses.


The Medicare prograln is administered by the Health Care Financing Administration

(HCFA). Medicare paylnents are funded through taxes paid by employers, employees,

and self-employed individuals, with some funding from general revenues. Additional

funding is obtainecl through monthly medical insurance premiums paid by Medicare

beneficiaries who elect this coverage.


The Medicare   program has two parts. Hospital       Insurance,   or Part A, and

%pplementary    Medical ]nsurance, or Part B.


The Hospital Insurance program pays for inpatient hospital services, inpatient care

provided in skilled nursing facilities, home health care, and hospice care. Program

Trustees reported that in Calendar Year 1992, approxi]nately 31 million aged and

4 million disabled individuals were covered. In 1992, total incolme was $93.8 billion

while expenditures were :lpproximately $85.() billion.


The Supplementary      Medic:~l [nsurance program pays for physicians’ services,

outpatient hospital services, ciurable medical equipment, laboratory services, and other

medical services and supplies. Program Trustees reported that in 1992, approximately

33.8 million individuals were covered. Income in 1992 was $57.2 billion

(or $57.3 billion rounding individual income amounts).    General revenues




                                                1

provided $41.4 billion or 72.3 percent of this income. Premiums paid by enrollees
provided another $14.1 billion or approximately 24.6 percent of the income for 1992
and the remaining $1.8 billion or 3.1 percent was from accumulated interest and other
income. Expenditures    for 1992 were approximately $50.8 billion.

Establishing   65 as the Entitlement Age:

For Social Securily

Otto von Bisrnarck of Germany is general]y recognized as establishing the first

compulsory old-age insurance program. That program established 70 as the

retirement age. This was later reduced to age 65 in 1916. Britain followed suit in

1925 by establishing 65 as its program retirement age. A 1935 survey of State old-age

insurance laws showed that 29 out of 42 States (69 percent) selected 65 as the

eligibility age for their pensions. The Social Security Act, enacted in 1935, established

65 as the normal retirement age. In addition, The Railroad Retirement Act

(P.L. 73-485) enacted in 1934 and subsequent legislation, used 65 as the retirement

age.


Our research shows that the original selection of 65 for the %cial Security retirement

age was somewhat arbitrary.    in the 1930’s, the planners of Social Security considered

the retirement age of 65 to represent a good compromise between the higher costs

associated with paying benefits at age 60, and the limited eligibility for these benefits

which would occur, due to shorter life spans, if age 70 was selected.


For Medicare

In the 1930’s the President’s acivisors considered establishing a Federal health
insurance program as purt of the Social Security legislation. However, due to
significant Congressional opp~~sition to this proposal, health insurance coverage    was
not included in the Social Security legislation.

In the next three decades, Congress considered various legislative proposals for some
form of Federal health insurance coverage. Health insurance bills were submitted in
the 1960’s to cover medical expenses for elderly individuals.

   .	   In 1961, the Forand hill was introduced in Congress. This bill proposed
        Federal health insurance of hospital and nursing home expenses incurred
        old-age benefici~lries.

   .	   In 1963, the King-Anderson   bill was introduced in Congress. This bill sought to
        provide hospital and related services to aged beneficiaries covered under the
        Social Security system. The Congressional hearings on this legislation
        established that 65 should be the age of entitlement for these benefits. No ages
        above 65 were discussed. Entitlement ages below 65 were discounted because
        a lower age woLlld include too lmnny individuals who were still working.
   �
          In 1965, Congress en:~cted Health Insurance forthe Aged legislation [Medicare
          (P.L. W-97)]. Ourreview     of C(Jngl-ession:~ lcommittee reports shows that
          entitlement ages other th:tn 65 were not seriously considered.    The hearings
          included discussions that workers generally retire at age 65 and are then in
          need of the basic protection that would be provided in the proposed Medicare
          legislation.

Legidalion    Increasing lhe Social Secunly Retirement Age

In the early 1980’s the Social Security Trust Fund was rapidly depleting its resources
to pay benefits. The President established the National Commission on Social Security
Reform.    This hi-partisan Commission issued a report in January 1983 to the White
House and to Congress. The report recommended        the gradual increase in the Social
Security retirement age. Factors cited by Commission members include:

   �
          older workers   will be in greater     demand        in future years;

   �
          the ratio of younger workers to retirees will decline after the turn of the
          century, causing significant increases in taxes. An increased age (for Social
          Security entitlement) would reduce this burden; and

   �
          future beneficiaries can adjust to an increased age (for Social Security
          entitlement)  if they are given sufficient notice.

In 1983, Congress enacted the Social ‘%curity Amendments   of 1983 (P.L. 98-21), which
instituted a number of measures to strengthen the solvency of the Social Security Trust
Fund. One of these measures was to increase the retirement age over the period
2003 through 2027 for unreduced monthly benefits (Table 1).

                                                 Table     1

       SCHEDULE      FOR INCREASING              SOCIAL        SECURITY       RETIREMENT            AGE
E::-                  -----

=1:......”.                        “.!.F~lR~t!!irniritAi{”::I:EtiveD”tes
  01/02/38 - 01/01/39
r--”--”
~--’-              ”-”””-”-         ~65   ,~s-:ri~-~~ri~n~h~”---”l
                                                         03/02/03 - 03/01/04
 01/02/39 - 01/01/40                ~65 yrs and 4 months                    05/02/04 - 05/01/05
                                   ... . ...
  01/02/40 - 01/01/41               ~65 yrs and 6 lmonths           07/02/05 - 07/01/06
                                   .1    ---    ..—. ______________
 01/02/41 - 01/01/4;      - ‘“--      65 yrs and 8 months           09/02/06” - 09/01/07
                                                       ___ .. ....E
  01/02/42 - 01/01/43                 65 y-s and 1() months           .   I 11/02/07
                                                                              .__:   - 11/01/08
  01/02/43 -01 /01/55                 66 yrs                               , 01/02/09 - 01/01/21
 01/02/55 - 01/01/56                 ~66 yrs and 2 months                  ~ 03;02/21 - 03/01./22
           -.—...                    ~                                ..—.< —...—_.
 01/02/56 - 01/01/57                 I 66 yrs and 4 months                j 05/02/22 - 05/01/23
                                   ..L–



                                                      3

       SCHEDULE       FOR INCREASING         SOCIAL    SECURITY         RETIREMENT          AGE

k:::==::FFcE~T:G;cGe-::                                               ‘Hective   Dates

IL-----
 01/02/57 - 01/01/58
                     -- ---i$:’:s:’n’i~  -rn(’= -107’02’23-07’01’24  I
IL-----------------
 01/02/58 - 01/01/59
                           i“ “S“n’---------
                        ----k-----–---––
                                                ~09/02/24 - 09/01/25
                                         “non’” [                    I
l~:–---~--y:~~~months”ths
 01/02/60 and later          ~G7 yrs
                                                1‘1’02’25 -11’01’2’ I
                                                                      01/02/27 and later
                           .—— —
                         .—.
                        ———.

This change was made in recognition         of two primary factors:

   �
         people   are living longer- (Appendix   A, Chart   1), and

   8	    increasing   the retirement   age would provicie for the financial      integrity of the
         program.

During consideration     of this legislation, the Senate proposed an amendment that
would have shifted the age of eligibility for Medicare in tandem with the increased
Social Security retirement age. The Senate report stated, “The minimum age for
eligibility for Medicare benefits woLlld continue to be tied to the age at which
unreduced retirement benefits are first available”. This amendment was not adopted;
therefore, no change was made to the eligibility age for Medicare benefits. However,
this amendment      proposal did affirm the belief by some members of Congress that
there is a historical relationship between the eligibility age for Social Security and
Medicare benefits.

METHODOLOGY

Literature Review

We researched the legislative history of the Social Security and Medicare entitlement
ages. We also conducted literature reviews to learn about the relationships ofi
government retirement and health insurance systems, both foreign and domestic; life
expectancies; economic trends; and factors which could affect the availability and
utilization of health insurance.

HCFA’s Acluuriul Projection

At our request, and working in consultation with our office, the HCFA Office of the
Actualy provided us with projected Medicare Hospital Insurance Trust Fund savings
which would result if the Meciicare entitlement age was made to correspond to the age
of entitlement to full Social Security benefits. This projection takes into account such
factors as: reimbursements    rates for aged insured beneficiaries; the size of the




                                                  4

population whose benefits would be delayed; health care utilization     rates; increasing

medical costs; and average hourly earnings increases.


The Actuary’s estimate covers ye:~rs 2003 through 2032, Years 2003 through 2027 are

the transition years, during which the Medicare entitlement would be gradually

increased if it followed the same schedule as the age of entitlement for full Social

Security benefits. At the beginning of year 2027, the entitlement age would reach

age 67; no further increases wou]d occur after that date. The years 2028 through 2032

make up the five year period immediately following this transition period.


Appendix B, Charts 2 and 3 provide a comparison between expenditures reduced by

the projected savings and expenditures under current law, and a summary of Hospital

Insurance Trust Fund savings for the 30 year period. Appendix C, Charts 8 and 9

reflect Trust Fund expenditures and income, and compare the Trust Fund deficit

under the current law and the age 67 proposal for the years 2028 through 2032.


Portraying Savings in Today k Terms

Because the gradual change in the retirement age and the associated actuarial

estimates span a period ot’ 30 years which ends 39 years from now, and because the

savings are large, it is difficult to grasp the signific:~nce of the amounts calculated. We

therefore performed several analyses to describe the results in today’s terms and to

gain additional perspective regarding the consequences of the change in entitlement

age. The results are expressed as a range of estimates, reflecting the following

concepts and methods.


       Conslanl Dollms     -- First, we noted that the Actuary’s projections were based on
       current dollars.    We converted the annual savings to constant dollars using the
       Consumer Price      Index. The rate averaged 3,92 percent. The results are found
       in Appendix B,     Chart 4.

       Today’s Prices -- Second, we know that medical costs generally outstrip the
       Consumer Price Index. For this reason, the Actuary’s projections used the
       Prospective Payinent System mnrket basket rate and health industry wage
       increases to approximate health care inflation. The total average annual price
       increase included in the Actuary’s estimates is 5,09 percent. We therefore used
       this rate to calculate the value of the Actuary’s projected savings at today’s
       prices. The result is found in Appendix B, Chart 5.

       Presenl Value -- Third, we recognize that the time value of money may be
       affected by factors other thnn general inilation or specific price increases. For
       example, economists adwxate considering the so called “present value” of
       future cash streams by taking into account the interest that could be earned by
       investment.   The general practice is to reduce future dollar amounts to a
       present value which if invested today woLlld grow to that future amount. A
       private business c:ln perf(>rm this calculation by using an interest rate at which


                                              5

       it can invest its money today. Economists generally agree that a similar
       adjustment should be made in analyzing government savings and expenditures,
       but there is no consensus on the rate that should be used. We decided to use
       the rate of interest projected to be earned by the Medicare Trust Funds. This
       rate averaged 6.32 percent. The result is found in Appendix B, Chart 6.

       Current Po&T -- Fourth, to gain additional perspective regarding the savings in

       today’s terms, we prepared our own analysis of the number of Medicare

       beneficiaries aged 65 and 66 and calculated the Medicare Hospital Insurance

       payments made on their behalf in 1991. Our data was taken from the HCFA

       1991 Common Working File, one percent sample (1992 data was not available).


       our calculations show how lmuch money would have been saved by the

       Medictire Hospital Insurance prog-aln if the Medicare entitlement age was

       raised to age 67 in 1991. We recognize that this method does not take into

       account the increase in the number of Medicare beneficiaries in future years,

       which woLlld increase the estimated savings. Our estimate is intended purely as

       a very rough approximation   of the financial ilmpact of the entitlement age

       change in terms that can be appreciated now.


       Savinxs as a Percentage of Expenditures -- We obtained from the HCFA Actuary

       their estimates of total Medicare Hospital Insurance expenditures under current

       law during the 30 year projection period based on the same factors which they

       used in calculating savings. This allows L]Sto express the savings as a percent of

       expenditures, another way to gain perspective in coming to grips with large

       dollar almounts in the ciistant future (Appendix B, Chart 7).


       We performed a silmilar analysis of 1991 expenditures for Medicare

       beneficiaries aged 65 and 66. While we noted above that our method

       understates total dollar savings because it ti~ils to take into account the increase

       in the beneficiary population, it seems to overstate the percentage of savings

       for the same reason--it does not take into account the increased use of

       Medicare reimbursed health services by beneficiaries over the age of 67 in the

       distant future. Still, it gives us another view concerning the significance of

       changing the entitle lnent <ige.


These analyses pr(wide a range ~~t’t’(~urestimates of the annual savings resulting    from
raising the Medicare entitlement age to 67, and two estimates of the Medicare
Hospital Insurance Trust Fund savings as a percentage of expenditures.

Supplemenla[   Medica[ Insurance Tnst Fund

The HCFA Actuary did not make long range projections for the Supplemental

Medical Insurance Trust Fund. We therefore made our own estimate of savings for

this program using the technique described above for the Hospital Insurance program.

That is, we calculated the amount of Medicare Supplemental   Medical Insurance



                                             6

payments macleto beneficiaries aged65 and66during    1991 (1992 data was not
available). This was based on the one percent sample of the Common Working File.

Uncertainly AnuZYsiv

In addition to putting future cash flows in today’s perspective, using a range of
estimates serves another purpose as well. Projections made Pzr into the future are
extremely uncertain.    Presenting the results as a range rather than a single amount
reminds the reader of the inherent uncertainty of such projections.    In the Findings
section of this report, we also describe a number of’ factors which cannot be accurately
predicted but which can greatly affect the savings achieved by increasing the
entitlement age.

Impact Analysis

Changing the Medicare entitlelnent :Ige would          have significant impact on Medicare
financing.     It could also affect the health care   prwctices and finances of Medicare
beneficiaries.     Based on our ongoing research      and studies of Medicare and health
financing policies, we identified some of these       impacts. They are briefly discussed in
the Findings section of the repc~rt,

We did not address the potential i!mpact that a change in the Medicare entitlement
age could have on other programs sU~h as Supplemental     Security Income and
Medicaid.    However, there could be an impact on these programs if individuals of
limited financial means find themselves in need of health car-e coverage and assistance
income during those months before they become entitled to Medicare.

our review was conducted in accorctance with the Quulily Standards for Inspection.s
issued by the President’s Council on Integrity and Efficiency.




                                                7

                                   FINDINGS


Gradually changing the Medicare entitlement age to 67 would save the Hospital

Insurance Trust Fund more than three quarters of a trillion dollars over a 30 year

period beginning in the year 2003.”


According to the actuarial projection, gradually changing the Medicare entitlement age

to 67, following the sa[ne schedule mandated under current law for the age of

entitlement to full Social Security benefits, would reduce Medicare expenditures for

the Hospital Insurance program by $446 billion during the 25 year transition period,

years 2003 through 2027. During the five years immediately after full implementation

of the policy, years 2028 through 2032, the savings would be $324 billion. The savings

for the 30 year period, years 2003 through 2032, would be $770 billion.


While there are other options available for a transition period, such as a shorter

period than 25 years, for reasons discussed in the background, we have tied our

projections to the %cial Security age and transition period.


The annual savings would be approximately $65 billion per year in the years

immediately after the entitlement age reached 67. In today’s terms, thk amounts           to

between $4.7 and $15.7 billion per year, depending on the measure used.


In the year 2028, the first year after the entitlement age reached 67, Medicare

Hospital Insurance expenditures would be reduced by $60.3 billion. Five years later,

in the year 2032, this would rise to $67.4 billion. To better understand the significance

of these amounts, the f~~ll(nving statements express, in varying ways, the annual savings

in today’s terms.


       Corz.rlunl Do&Ks. Eliminating     the effects of genera] inflation,   the annual savings
       would be $15,7 billion.

       Todav’.s F7ice.s. Eliminating   the effects of medical inflation,   the annual savings
       would be $10.6 billion.

       Present Value. The present value of annual savings, based on the average rate
       of interest for the Hospital Insurance Trust Fund would be $7.1 billion,

       Currenl Policy. li’ the age of entitlement ha~i been changed to 67 in 1991, the
       Hospital insurance Trust Fund would have saved $4.7 billion that year.




                                                s
Medicae      Hospital   Insurance   expenditures   would be reduced     by 3.4 percent.


The $60.3 billion saved in the year 2028 is 3.4 percent of the estimated $1.8 trillion

which would be expended by the Medicare Hospital program if the entitlement age

remains at 65.


The Medicare      Hospital   lnsurmce    deficit would be reduced     by 5.0 percent.


We have calculated the projected deficit in the five years after the transition period

before and after applying the projected benefit savings (Appendix C, Chart 9). The

percentage of savings decreases fro[m 5.0 percent in 2028 to 4.3 percent in 2032, due

primarily to the rapid growth in the deficit from $1.19 trillion in 2028 to $1.64 trillion

in 2032.


The Medicare      Supplementary      Medical   Insurance   program   would also save significant

amounts.


As noted in the Meth~xiolc)gy section, the HCFA Actuary did not make projections of

the Medicare Supplementary     Meciic:ll Insurance Trust Fund expenditures that would

result from a change in entitlement age. However, we calculated that if the

entitlement age had been changed to age 67 in 1991, Supplelnental     Medical Insurance

savings, including a small number of disabled beneficiaries, would have been $2.4

billion or 6.3 percent.


Estimates of future savings are imprecise due to a number             of uncertainties     about

which we can make only rough assumptions.


Estimating the financial effects of today’s decision on program costs 34 years hence

requires that we make a nulnber of :lssumptions about future beneficiaries’ use of

medical services, their future :lccess to private insurance, and the future costs of

medical care. For example, the nl~~del prepared by HCFA’S Office of the Actuary,

discussed above, assumes that beneficiaries will use services in patterns similar to

today’s; that most beneficiaries will continue working and purchase employer group

health insurance until they become eligible for- Medicare, but some will become

uninsured; and that costs of medical care will rise at moderate rates throughout the

period. While we believe these to be reasonable assumptions, different conclusions

would lead to different estimates.    For example:


   .	     If older Americans lose access to affordable, employer-provided    health
          insurance as a result of early retirement, they might forgo preventive care and
          delay needed services until they became Medicare entitled. Costs to the
          program wou]d increase as beneficiaries entered the program in poorer health
          and in need of services which had been delayed.
  .	   If health care costs rise at rates far above the Consumer Price Index or
       Prospective Paylment System market basket rate, the program would save more
       than we’vec:llcul:~ted by not coverin gthoseag,e d65and66.

  .	   Advances in medical technology might have an effect on our estimates as well.
       For example, ne\vtechn(~l(>gies tc)detect ~lndsuccessfully treat diseases might
       create healthier 65 and 66 year olds who use fewer services than their
       counterparts   today. In this case, the program would save less than we’ve
       estimated by not covering this groLlp. On the other hand, demand might
       increase for new high technology services by 65 and 66 year olds, and Medicare
       would save more than we’ve estimated by not covering this group.

  �	
       Coverage policies will also have an effect on our estimate.  If Medicare
       coverage policies are more generous than private insurance policies,
       beneficiaries Imight delay some care until they become Medicare eligible and
       the services are covered, Our projections would then be overestimated,     since
       the elderly w[~uld simply defer their health care consumption until older.

The impact of raising the entitlement age on future Medicare beneficiaries is not
known. However, providing substantial advmce notice of the change, as has been
done by Social Security, can reduce potential negative consequences.

Increasing Medicare’s entitlement age would contribute to a healthier Trust Fund,
even though the effect on the projected deficit is modest. Clearly this change would
not, in and of’ itself, solve the fiscal crisis facing the program. Any steps that can be
taken now, however, to begin to adciress the pr-ojecteci financial shortfalls in the
program would help beneficiaries by ensuring the solvency of the program and
potentially reduce the need to call for increased contributions from beneficiaries or
taxpayers to keep the program fiscally sound. On the other hand, other considerations
might argue against making such a change. A healthier Trust Fund, while not an
insignificant benefit, might be outweighed by potential negative effects on
beneficiaries.  For example, would beneficiaries have access to other, comparable
health insurance at ages 65 and 66, prior to entering the program’? If not, would they
delay seeking and receiving needed health care daring this time? Would the States
then face adciitional costs of caring for- or insuring these older Americans’? Would
hospitals face larger- uncompensated       care burdens’?

The responses to these qucsti[~ns can (~nly be speculative. This is particularly true,
since both the phased in Sc~ci:~l%curity entitlement age change and health care
reform efforts will almost certainly affect employment patterns and older Americans’
access to private health insurance at affordable prices. For example:

  �	
       Older Americans lmight choose to delay retirement to an older age in the
       future, in light of the change in Social Security entitlement age and the fact that
       Americans are living longer (Appendix A, Chart 1). Consequently, they may
       continue to be covered under their elnployer’s health plan until they become


                                            10

       eligible for Medicare. Older Americans might also feel forced to continue
       working in order to remain eligible for their employers’ group health plan.

  .	   Older Americans may continue toretire prior to becoming eligible for Social
       Security, as they have in the past. Upon retirement, they might continue the
       employer’s group health plan, forego private insurance, or choose a modest
       insurance package.

  �	
       People may delay seeking needed care. This could result in increased costs
       once medical attention is sought, as well as personal suffering by the
       beneficiary. Older Americans might also seek and receive needed care, but be
       unable to pay for it, thus creating financial pressures on States through the
       Medicaid program or other State program for the uninsured, and providers.

If enacted, this change would have to take into account alternative sources of financing

that would be available to those who would be denied Medicare coverage.


The amount of advance notice provided of the change would also affect whether

negative consequences to older Americans would arise. Without advance notice, older

Americans would be unable to plan for their health care needs and costs during the

years that would no longer be covered by Medicare,      A phased in transition,

paralleling the transition to an older entitlement age for Social Security, would allow

older Americans time to plan for their health care needs and expenses and help avoid

undesirable consequences.





                                            11

                                      APPENDIX                             A


                              LONGEVITY INCREASES

In 1980, the~~ver~~ge life expectancy forpersons  whohadattained     age65 was79 years
for males and 83.4 years for felmales. By the year 2000, this is expected to increase to
80.4 and 84.4 years respectively,   Chart 1 demonstrates the gradual increase in life
expectancy for males and females that attain age 65 through the year 2070.

                                                        Chart 1
            Projected     Life                   Expectancy                     in the U.S
              For    Persons                     Who    Attain                  Age   65
    2070                                                                                                   sex

    2060                                                                                         ~      Females
                                                                                                 m      MaIes
 ~ 2040
 22020
 -%
 34 2000
 g 1980

    1960
    1940

                                   Projected     Life   Expectancy

 source  The 1!)93Annual Report of the Board of “~rustms 0[ the Federal O1d-Agc and Survivors Insurdnce Fund and the
Federal Disability Insurmcc Trust l~und




                                                          A-1

                                                           APPENDIX                                          B


                                                 SAVINGS PROJECTIONS

In conjunction with our office, the HCFA Office of the Actuary projected the Hospital
Insurance Trust Fund expenditumsand        savings resulting from gradually increasing the
Medicare entitlement age to 67 on the same schedule as the age of entitlement for
unreduced Social Security benefits. The base year used in calculating the savings was
1990, themost   current data avaik~ble. Theresults     areshown in Charts 2and3.
Chart 2compares     the projected expenditures under current lawandthe       proposed age
67 entitlement provisions.   Correspondingly,   Chart 3projects the Hospital Insurance
Trust Fund savings through 2028, and for the subsequent 5 years.

                                                                                 Chart 2
     Comparison                                 of Projected      HI                         Trust                 Fund   Ex :penditures
                                                Proposal     versus                          Current                  Law
         2600        —–-    ---                                                                                        ———.

 =                                                                                                                   ———          .




 E~---;i[i[




                                                                                       ,~j~_j~#~:v[T




 f:iiiBMli[BBlll![llllilli’1~’                                                                                             ‘i
                   03040506070           S09101112          1314151617181920212223                     242526272     S29303132
                                                      Calendar        Years      2003       - 2032

Source          Dcpmlmcnl         of 1 Icallh   and    I Iuman   Services, I kxllli   Cm    [financing     Adminislrdtion,    oflkc   Oflhc   Actuiuy




                                                                                      B-1
                                                                          Chart 3
                     Projected                            HI   Trust                    Fund     Savings
             Achieved      By                         Increasing                      the  Entitlement                            Age



E=====’




h     10
 ??
*O
           03040       S060708091011                    1213      141 S16171S            192021222324252627282930
                                                  Calemdas-         Years                2003        - 2032
Source     The Dcparimcnt     of I Icallh and I Iumi:n Services, Office of           hspwlor     (kncral




Based upon the HCFA Actuary’s estim:ltes, we converted the projected savings
eStimateS froln current dollars to constant do]lars by backing out genera] inikiliOII                                                        as
measured by the Consumer Price Index. This rate ~lverage~ 3.92~ercent.         The
resulting constant dollar estimates ~lre shown in Chart 4.

                                                                          Chart 4
                                       Savings                  in       Constant                   Dollars

g     ,8 +_–-.                .. ..-...       -                                                        .
                                                                                                                             --     m,:




                                                                                           ,,,                 ,,
           03040506070809101112                             13141516    17181920212’2                         23242=282930
                                                                                                                                          3132
                                                        Calendar     Years    2003    -                    2032

Source     The   Dcpartmcnl   OK I   [callh   and   I luman   Swviccs,   oflicc   of Inspwlor    General




                                                                            B-2

We also converted the actuarial estimate to today’s prices by subtracting price

increases specific to the Medicare Hospital Insurance program.   For the calculation,

we used a rate of 5.09 percent, the average annual rate of total price increases used in

the actuarial estimates.  The results are shown in Chart 5.





               ———
               —.—
                                                                                              Chart 5


                  __.
                   —..
              ~--—-””-””
                                                              Savings
                                                             “-‘“”-
                                                                                       in      Today’s
                                                                                                 __—
                                                                                                                       Prices




              E-”-”-_.—

 Source
              E“-  ~o”
                         *——-*




                   03040506070809


               The Dcpartmcnl
                                       %.
                                                  q­




                                                  —-
                                                  @M
                                                        W*
                                                             rq




                                                                            Calendar

                                                   of I Icallh and I Iuman SCMCCS, [)llkc
                                                                                               Years

                                                                                                   of
                                                                                                           2003

                                                                                                        Inspwlor
                                                                                                                       -

                                                                                                                   rkrrcrd!
                                                                                                                           2032




 We computed the present value of the savings estimates using 6.32 percent, the
 average rate of interest projected to be earned by the Medicare Trust Funds. The
 results are shown in Chart 6.

                                                                                              Chart 6
                                                                   Present              Value             of       Savings
       10
 -ZJ9                            —-.        —...—.                .-                                                              _——
 a
 >8                                                                                                                                           **
 ~                                                                                                                                   —WA
                                                                                                                                           _eL-eOQ,
          7                                                                                                                                           —\
                                                                                                                                   *4
 E        .I=                                                          -’       ‘“-’--”’’’:                 .. . . .       -——-*—-– ~




 -4
 .E1




 _b

 !3’
 +.       “—–—–,                            H,,


                    03040506070809101112                                         13141516171               S19202122232425:
                                                                             Calendar     Years              2003   - 2032

  Source           The Dqrwlmcnl                       of 1Icakh and 1 Ium:m Scrviws,         (Mlicc of Inspcclor General




                                                                                                B-3

The HCFA Actualy also provided us with projections                                              of Medicare Hospital Insurance
expenditures that would occur under current law, i.e.,                                          without raising the entitlement
age. These used the same underlying assumptions as                                              the projections of savings. Thus,
we were able to compute the percentage that savings                                             are of current law expenditures.
The results are shown in Chart 7.

                                                                      Chart 7
               Savings           as        a Percent                  of    Current                    Law             Expenditures
          5

E     4.5

a         * E-”         -..::.““””-”””-””

                               “-”-    “--”””’’”” --:::.”




~
      3.5
         ‘+-------
         3 *---

                  --------
                    ---------~
                  ~----g-~
                  q~H&e+ei
                    ..=—~.
                      —
                      ..
                       —
                 W=...____–.
                 -y–
                             ~~-— --
                                               --
                                                   ...

                                           ------------
                                                        ~~
                                                     ---–-
                                                                 ‘----
                                                                 -—-————




                *?+
“?’
t%
                %2--------
                      –_.
      2.s




               qd      .
          2

      1.5



      0.5
          1




          0
                ------
               ~—O—
                .—
                 —.- —
                 ——
               E“lllllll
                Ill
                03040506070809101112131415
                                         Calendar
                                                                           17181920
                                                                           ears 2003            -
                                                                                                          232425
                                                                                                          32
                                                                                                                           272829303132


SOurctx   Thc   Dcparlmcnt   or f IcAIII   and   I Iuman   Swviccs,   1Icalth (Mc   llnancing       fkfministrdlinn,    ~11’ke   Of lk   Actualy




Finally, we estimated the savings that would have been achieved in both the Hospital

Insurance and the Supplemental    Medical Insurance programs if the Medicare

entitlement age had been increased to 67 in 1991. We calculate that the Hospital

Insurance program would have saved $4.7 billion and the Supplemental         Medical

Insurance program $2,4 billion in 1991 if 65 and 66 year old beneficiaries had not

been covered. These savings incorporate    the offset of $(1.8 billion in revenues, which

is the amount of premiums that would not be collected from 65 and 66 year olds if the

entitlement age is revised. We also excluded End St:~ge Renal disease beneficiaries

from this calculation but were unable to exclude non-End Stage Renal disease disabled

65 and 66 year olds who would be eligible for benefits regardless of age.





                                                                        B-4

                                                                         APPENDIX                                                           C


                                                                                                        Chart 8
                                  Projected                                                        HI Trust   Fund
                     Expenditures       and                                                      Income   Under    Current                                                             Law




                               28                               29                               30                             31                           32
                    Calendar               Years               2028          - 2032              When              Proposal               is in Full             Effect

!%urc%        The    Dcpmlmcnt         or       1Icalth und 1Iuman Scrviccs, office                                 of’ Inspcclor (kncrdl


The full extent of the progressive Trust Fund deficit for years 2028-2032 is
demonstrated   in Chat-t X For the sake of colnparison, we also show the net deficit
under the present current law and the age 67 proposals in Chart 9. Because of
rounding there may be discrepancies in the current law deficit between Charts 8 and 9.

                                                                                                         Chart 9
                   Comparison                   of Projected                                                                       HI                  Trust    Fund
              Annual        Deficit            - Proposal                                                                       versus                   Current     Law
         ~.,~~_____   _.._......... ... .-–-–.–.–-. .
          1.7   +——.-                      .-                                                            —
                                                                                                                                                                  ~
                                                                                                                                                                  s—



                i==”----”
                       --:::-----
         1.65                                                                                                                   —
                                                                                                                                                                                  -     Proposal
                                                                                                                                                                      Y
 2?       1.6                                                                                                                                           =i

                                                                                   —-
                                                                                                                     —T
                                                                                                                            —_~
                                                                                                                                      *                           /
                                                                                                                                                                                  ~c      urrent   Law
 a       1.55

                                                                                                                           ~.   .-F

                                                                                                        =J
 B       12     F----”---- -“:-     “--:        “-’        -   ‘“-                  “-”””’                                                 -7                                 -


                                                                                             d   --q-                .-                     ____




 ~        ‘“2   -t-%”--F%i-””-””-                     ““             y       ““” --::”                       ‘--                                   –
 .=      1.1s   ++         4//J’&---­

 2

         ::g~g:=[”f-”.’                                                                           ~::                            ~         5                 ‘            :
                                           —      .                  ,. /,/i-–.          I                          lFlf         .,        —
                               28                               29                               30                             31                           32
                    Calendar               Years               2028          -    2032           When              Proposal               is in Full             Effect

Source        Thc Dcparlmcnl               of I lcalth and [ Ium:m Scrvic~,                              (Mlicc or Inspwtnr                (kncral




                                                                                                             c-1

                             APPENDIX                   D


                               BIBLIOGRAPHY

 Achenbaum, W. Andrew. Social Security Visions and Revisions.        A Twentieth     Century
Fund Study, New York: Cambridge University Press, 1986.

 Bowen, William, et. al. The American System of Social Insurance: Its Philosophy,
Impact, and Future Development.    The Princeton Symposium, New York: McGraw-
Hill, 1968.

 Davis, Kenneth S. “The Birth of Social Security.” American Heritage, (April/May
1979), pp. 38-51.

 Derthich, Martha.   PolicVmakinU for Social Security, Washington,   D. C.: The Brookings
Institution, 1979.

 Douglas, Paul H. Social Security in the United States. New York: McGraw-Hill           Book
Company, 1936.

 Public Law 98-21, “Title 11- Additional Provisions Relating to Long-Term Financing
of the Social Security System.” Social Sewi[y Amendments of 1983, (April 20, 1983).

 Stein, Bruno. Social Security and Pensions in Transition:   Understanding   the American
Retirement   Svstelm. New York: The Free Press, 1980.

 U.S. Congress, House, Committee on Ways and Means, “Medical Care for the Aged.”
H.R. 3920, 88th Congress, 1st and 2nd Sessions, Part 1 (November 18, 19, and 20,
1963).

 U.S. Congress, House, Committee on Ways and Means, “Medical Care for the Aged.”
89th Congress, 1st Session, Part 1 (January 27, 28, February 1, 2, 3, 4, 5, 8, 9, 10, and
16, 1965).

 U.S. Congress, House Conference Report, “Additional Provisions Relating           to Long-
Term Financing of the %cial Security System.” Socio[ Security Amendments           of 1983,
(March 24, 1983).

 U.S. Congress, House, Committee on Ways and Means, “Communication      from the
Board of Trustees of the Federal Olci-Age and Survivors Insurance and Disability
Insurance Trust Fund.” 102nd Congress, 2nd Session, House Document 102-279, U.S.
Government    Printing Office, Washington: 1992,




                                           D-1

 U.S. Congress, House, Colmrnittee on Ways and Means, “Communication    from the
Board of Trustees of the Federal Hospital Insurance Trust Fund.” 102nd Congress,
2nd Session, House Document 102-280, U.S. Government Printing Office, Washington:
1992,

 U.S. Congress, House, Colmmittee onWays and Means, ’’Communication from the
Board of Trustees of the Federal Supplementary Medical Insurance Trust Fund!’
102nd Congress, 2nd Session, House Document 102-281,U.S.GovernmentP     rinting
Office, Washington: 1992.

 U.S. Congress, Senate, Committee on Finance, “Social Security.” H.R. 6675, 89th
Congress, lst Session, Part 1 (Apri129, 30, and May 3,4,5,6,7,1965).

 U. S. Congress, Senate, Committeeon    Finance, “National Commission on Social
Security Reform Recommendations,     “98thCongress,   lst Session, Part20f 3, (February
22 and 23, 1983).

 U.S. Congress, Senate, Committee    on Finance, “National Commission on Social
Security Reform Recommendations.     “98thCongress,   1st Session, Part 30f3, (February
24, 1983).

 U.S. Department    of Health anti Human Services, Health    Care Financing
Administration,  Office of the Actuary, Office of Medicare   and Medicaid Cost
Estimates, Division of Hospital Insurance.

 U.S. Department   of Health and Human Services, Office of Inspector General, Office
of Audit Services, “OIG Recommendations  Impacting on the Solvency of the Medicare
Trust Funds,” (June 1991).

 U.S. Department   of Health and Human Services, Social Security Administration,
“Social Security Amendments ot’ 19S3: Amendment Summary.” SSA Publication
Number 67-006, (JLIly 1983).

U.S. Department    of Health and Human    Services, Social Security Administration,
Social Security Courier, (June 1992).

 U.S. Department  of Health and Hulman Services, Social Security Administration,
Pro~ram Operations Manual. RS ()()615.()()1 - ()()615,()05, Basic (TN 8) 12-89.

 U.S. Department of Health and Human Services and Metropolitan      Life Insurance
Company, National Center for Health Statistics, Life Insurance Fact Book Update.
1991.




                                          D-2

